February 1, 2010

MEGAN J. BRENNAN
VICE PRESIDENT, EASTERN AREA OPERATIONS

SUBJECT: Audit Report – New Castle Processing and Distribution Facility Outgoing
         Mail Consolidation (Report Number NO-AR-10-002)

This report presents the results of our audit of the proposed consolidation of the New
Castle Processing and Distribution Facility’s (P&DF) outgoing mail operation to the
Pittsburgh Processing and Distribution Center (P&DC) (Project Number
09XG036NO000). The report responds to a Congressional request. Our audit objective
was to determine whether the consolidation of outgoing mail operations is a prudent
business decision. This audit addresses operational risk. See Appendix A for
additional information about this audit.
New Castle Processing and Distribution Facility                                                      NO-AR-10-002
 Outgoing Mail Consolidation



Conclusion

Consolidating the New Castle P&DF outgoing mail processing operations1 into the
Pittsburgh P&DC is a prudent business decision. Our analysis showed the
consolidation will minimally impact employees, improve service, and reduce costs
through increased efficiency. Additionally, the U.S. Postal Service has addressed
community concerns and the Area Mail Processing (AMP) consolidation estimates
appeared reasonable. Because our findings support the consolidation, we are not
making recommendations. Postal Service management agreed with the report but
chose not to comment because there were no recommendations. See Appendix B for
our detailed analysis of this topic.

We appreciate the cooperation and courtesies provided by your staff. If you have any
questions or need additional information, please contact James L. Ballard, director,
Network Processing, or me at (703) 248-2100.

        E-Signed by Robert Batta
    VERIFY authenticity with ApproveIt




Robert J. Batta
Deputy Assistant Inspector General
 for Mission Operations

Attachments

cc: Patrick R. Donahoe
    Steven J. Forte
    Jordan M. Small
    Charles P. McCreadie
    Jeffrey L. Bergen
    Eileen Mills
    Sally K. Haring




1
 The New Castle P&DF will transfer approximately 81 million First handled pieces (FHP) of mail per year to the
Pittsburgh P&DC.




                                                         2
New Castle Processing and Distribution Facility                                                  NO-AR-10-002
 Outgoing Mail Consolidation

                          APPENDIX A: ADDITIONAL INFORMATION

BACKGROUND

The Postal Service is facing one of the most difficult challenges in its history. There has
been a continual decline in First-Class® Mail (FCM) volume over the past decade.
During fiscal year (FY) 2009, the decline in overall mail volume was more than 25 billion
pieces, resulting in a net loss of $3.8 billion.

Although the Postal Service has reduced expenses by nearly $6 billion in FY 2009, the
expense reduction was not sufficient to fully offset the decline in mail volume and rising
cost of workers’ compensation and retirement costs. In recent testimony before
Congress,2 the U.S. Government Accountability Office (GAO) recommended that urgent
action was needed to streamline the mail processing and retail networks, as the Postal
Service no longer has sufficient revenue to cover the cost of maintaining its large
network of processing and retail facilities. Furthermore, GAO stated it was necessary
for the Postal Service to consider whether it was cost-effective to retain underutilized
facilities and to take action to right size its network.

Through AMP guidelines, the Postal Service streamlines operations by consolidating
mail processing functions resulting in increased efficiencies and better use of its
resources. Automated processing of mail has provided opportunities to take advantage
of consolidations. The opportunities include consolidations of:

       Saturday First-Class™ originating operations.
       First-Class originating operations.
       First-Class incoming operations.
       Overnight Priority Mail® processing.
       Originating Priority Mail processing.
       Originating and destinating Priority Mail processing.
       Annexes into main facilities.
       Facilities.

In answering a Congressional request, we examined the proposed consolidation of
outgoing mail processing operations from the New Castle P&DF into the Pittsburgh
P&DC. Concerns included:

       Protecting the interest of Pennsylvanians.
       Maintaining the facility.

The request asked that the consolidation be delayed until our review was completed.


2
 Testimony before the Subcommittee on Federal Workforce, Postal Service, and the District of Columbia, Committee
on Oversight and Government Reform, House of Representatives (GAO-09-475T, dated March 25, 2009).




                                                       3
New Castle Processing and Distribution Facility                                                        NO-AR-10-002
 Outgoing Mail Consolidation

The Postal Service conducted an AMP study to determine whether efficiency could
increase by consolidating outgoing3 mail processing operations from the New Castle
P&DF into the Pittsburgh P&DC. The study proposed that New Castle P&DF zones 160
through 162 outgoing (originating) mail processing be moved to Pittsburgh P&DC. The
New Castle P&DF would continue to process the destinating mail. The consolidation is
scheduled to involve a shift of approximately 60 million originating mailpieces per year
with a projected savings of $1.5 million per year. New Castle P&DF is approximately 54
miles from the Pittsburgh P&DC. The New Castle and Pittsburgh facilities are in the
Western Pennsylvania District in the Eastern Area. See Map 1.

                          Map 1: New Castle and Pittsburgh Service Areas




3
    Mail originating at the New Castle P&DF either from collections or through Business Mail Acceptance.




                                                           4
    New Castle Processing and Distribution Facility                                   NO-AR-10-002
     Outgoing Mail Consolidation

    OBJECTIVE, SCOPE, AND METHODOLOGY

    Our audit objective was to determine whether the consolidation of outgoing mail
    operations is a prudent business decision. We reviewed capacity, customer service,
    staffing, efficiency, transportation, and maintenance data for the New Castle P&DF and
    the Pittsburgh P&DC. We evaluated potential efficiencies at both locations as well as
    analyzed capacity of the Pittsburgh P&DC. Additionally, we conducted observations at
    both sites during the week of October 19, 2009, and interviewed Postal Service officials
    and employees. We also reviewed the New Castle P&DF AMP consolidation study
    prepared by Postal Service Headquarters for reasonableness. Because the New Castle
    P&DF AMP package had been prepared beginning in April 2009, we used updated data
    to determine potential cost savings.

    We used computer-processed data from the following systems:

          Enterprise Data Warehouse.
          Customer Satisfaction Measurement.
          Electronic Maintenance Activity Reporting and Scheduling System (eMARS).

    We did not test controls over these systems. However, we checked the reasonableness
    of results by confirming our analyses and results with Postal Service managers and
    multiple data sources. We conducted this performance audit from September 2009
    through January 2010 in accordance with generally accepted government auditing
    standards and included such tests of internal controls as we considered necessary
    under the circumstances. Those standards require that we plan and perform the audit
    to obtain sufficient, appropriate evidence to provide a reasonable basis for our findings
    and conclusions based on our audit objective. We believe that the evidence obtained
    provides a reasonable basis for our findings and conclusions based on our audit
    objective. We discussed our observations and conclusions with management on
    November 24, 2009, and included their comments where appropriate.

    PRIOR AUDIT COVERAGE

                         Report       Final Report
    Report Title         Number           Date                          Report Results
Steubenville –          NO-AR-        March 30,           Consolidating the Steubenville Main Post
Youngstown, Ohio,       07-003        2007                Office outgoing mail processing operations
Outgoing Mail                                             into the Youngstown P&DF achieved the
Consolidation                                             desired results.
Canton Processing       NO-AR-        September           We concluded that consolidating the
and Distribution        09-011        22, 2009            Canton P&DF outgoing mail processing
Facility Outgoing                                         operations into the Akron P&DC was a
Mail Consolidation                                        prudent business decision.




                                                      5
New Castle Processing and Distribution Facility                               NO-AR-10-002
 Outgoing Mail Consolidation

                          APPENDIX B: DETAILED ANALYSIS

Capacity

The Pittsburgh P&DC has sufficient capacity to absorb the outgoing mail processing
operations from the New Castle P&DF.

      Daily volume from the New Castle P&DF of approximately 238,000 mail pieces
       would be less than 5 percent of Pittsburgh P&DC’s daily volume of about 4.9
       million FHPs.
      By reducing idle time on Pittsburgh P&DC’s machinery, all of the New Castle
       P&DF’s volume can be run within the existing operational window. See Table 1.
      The Pittsburgh P&DC has sufficient capacity to process an additional 100 million
       mail pieces on its advanced facer cancellers (AFCS), while New Castle P&DF
       will transfer only about 43 million pieces. See Table 2.
      The Pittsburgh P&DC has sufficient capacity to process an additional 157 million
       pieces of mail on its delivery input output subsystem (DIOSS) machines, while
       New Castle P&DF will only transfer about 72 million pieces. See Table 2.
      Average volume of outgoing flats from New Castle to Pittsburgh is less than
       20,000 pieces. This volume of flats could be processed at Pittsburgh on the
       AFSM 100 during its existing operational time.

                   Table 1: Pittsburgh P&DC Automation Utilization

                                 Average Operational Day
            Operational                                                        Idle Time
                              Run Time                Idle Time   Down Time
              Time                                                            Percentage
AFCS              5.9             3.3                   2.6          0.0          44
AFSM             14.5            12.9                   0.3          1.3          2
CIOSS            10.5            5.3                    4.0          1.1          38
DIOSS            10.8            4.3                    5.0          1.5          46
DBCS              9.2             5.4                   3.2          0.6          35
SPBS             12.5            11.6                   0.7          0.2          5
UFSM             17.2            8.3                    6.9          2.0          40




                                                  6
New Castle Processing and Distribution Facility                                                         NO-AR-10-002
 Outgoing Mail Consolidation



                           Table 2: Pittsburgh P&DC Available Capacity

                                                Annual Volume
                                                     Additional Available                New Castle P&DF
                  Pittsburgh Volume
                                                           Capacity                          Volume
    AFCS              259,872,209                         104,163,239                         42,520,126
DIOSS                 273,409,819                         157,410,574                         71,651,337

Customer Service

Consolidating the New Castle P&DF’s outgoing mail operation into the Pittsburgh P&DC
will improve customer service to New Castle P&DF customers. There are six city pairs4
currently receiving 2-day First Class® mail service that will receive an upgrade to
overnight service with the consolidation without any downgrades. The Western
Pennsylvania District plans to continue the high level of customer service currently
provided including:

          No changes to collection box times.
          No changes to Bulk Mail Acceptance and window service hours.
          Achieving customer satisfaction measurement (CSM) scores above the national
           average. During quarter 4, 2009, the Postal Service achieved a national score of
           94 percent in the category of excellent, very good, or good as reported in CSM.
           New Castle P&DF and Pittsburgh P&DC achieved a score higher than the
           national average. See Table 3.

                         Table 3: Customer Satisfaction Survey Results

                                   CMS Scores
      Percent of Customers Rating Their Residential Service as Excellent, Very
                                 Good, or Good
                   Three-Digit  Q1   Q2     Q3     Q4     Q1    Q2    Q3     Q4
                      ZIP       08   08     08      08    09    09    09     09
     Pittsburgh    150 - 154,
                                95   95     96      96    96    96    96     96
       P&DC        156, & 260
                      160       98   95     89      98    95    94    97     97
     New Castle
                      161       94   93     97      94    96    94    97     96
       P&DF
                      162       98   95     90      99    92    92    96     98
      National         All      92   92     92      93    93    93    93     94


4
 There are service standards established for mail traveling between all three-digit zones. Each pair of three-digit
zones is referred to as a “city pair.”




                                                           7
New Castle Processing and Distribution Facility                              NO-AR-10-002
 Outgoing Mail Consolidation

      Continued high performance in External First Class Measurement System
       (EXFC), service performance from a customer perspective. For six of the last
       seven quarters, the Pittsburgh P&DC has outperformed the New Castle P&DF in
       overnight service. Two-day trends have been similar at both plants, while for the
       past 3 years, 3-day service provided by the Pittsburgh P&DC has been more
       consistent averaging 92.07 percent on-time compared to the New Castle P&DF’s
       on-time rate of 90.93 percent. See Charts 1, 2, and 3.

                             Chart 1: EXFC Overnight Service




                                 Chart 2: Two-Day Service




                                                  8
New Castle Processing and Distribution Facility               NO-AR-10-002
 Outgoing Mail Consolidation



                                 Chart 3: Three-Day Service




      Locally available postmark. See Illustration 1.




               Illustration 1:
  Mail processed at the New Castle P&DF
 will be processed at the Pittsburgh P&DC
  receiving the Pittsburgh, PA postmark.
 Local postmarks will still be available at
      the window in local post offices.




                                                  9
New Castle Processing and Distribution Facility                                                   NO-AR-10-002
 Outgoing Mail Consolidation



Employee Impacts

Impact on employees due to the consolidation will be minimal. We found the
consolidation will eliminate 20 positions.5 Management can accomplish this by:

        Not replacing nine employees who have announced their intention to retire,
        Eliminating 10 positions held by temporary employees, and
        Relocating one clerk. See Table 4.

               Table 4: New Castle P&DF Proposed Complement Changes

                         Career                                       Temporary               Career
                                               Employees
                       Positions to                                   Positions to          Employees to
                                                Retiring
                        Eliminate                                      Eliminate             Relocate
Clerks                       13                      4                       8                      1
Mail Handlers                 5                      4                       1                      0
Maintenance                   1                      1                       0                      0
Supervisors                   1                      0                       1                      0
Totals                       20                      9                      10                      1

Although the transfer of the outgoing operations to the Pittsburgh P&DC will not require
additional staffing, it also has 86 clerks and 22 mail handlers who will retire by the end
of this year. The Pittsburgh P&DC will hire additional temporary employees to replace
those retiring.

Efficiency

We projected the consolidation of originating processing operations into the Pittsburgh
P&DC will increase overall productivity. Processing costs will decrease through the
reduction of almost 32,000 function 1 workhours at the New Castle P&DF without an
increase at the Pittsburgh P&DC.

        For FY 2009, FHP productivity at the New Castle P&DF was 1,291 pieces per
         hour (PPH), well above the 1,222 PPH average for its group.6 Transferring the
         originating operations also eliminates the need for a unit supervisor saving an
         additional 1,825 hours annually.


5
 The Postal Service AMP study projects a reduction of nine clerks and six mail handlers.
6
 Based on BPI groupings, New Castle P&DC is one of 47 processing facilities in group 6. There are seven
groupings with the largest facilities belonging to group 1. The Pittsburgh P&DC is a group 1 facility.




                                                       10
New Castle Processing and Distribution Facility                              NO-AR-10-002
 Outgoing Mail Consolidation

      The FY 2009 productivity at the Pittsburgh P&DC was 813 PPH compared to its
       group average of 850 PPH. Transferring the New Castle P&DF outgoing volume
       without increasing hours will result in an increase in productivity to 855 PPH,
       equaling a 5-percent increase. See Table 5.

               Table 5: Projected Consolidation Effects on Productivity

                      New Castle                        Pittsburgh P&DC
                                         New Castle                     Pittsburgh P&DC
                     P&DF Before                              Before
                                         P&DF After                           After
                     Consolidation                       Consolidation
                                        Consolidation                    Consolidation
                       FY 2009                               FY 2009

Mailpieces
                      328,999,409        248,165,618     1,546,585,053   1,627,418,844
Processed FHP

F-1 Workhours
                        254,855            223,026         1,902,861       1,902,861

FHP Productivity          1,291             1,113            813             855

Targeted FHP
                          1,222             1,222            850             850
Productivity

Nationally, it cost $82.61 to process 1,000 mail pieces. The cost of processing 1,000
mailpieces at the Pittsburgh P&DC is $81.63. The increase in volume from the New
Castle P&DF will further decrease the processing cost at Pittsburgh P&DC.

Transportation

Transportation routes and schedules changes would save money. Proposed
transportation changes include creating new consolidation points at the New Castle
P&DF, Butler Post Office, and Cranberry Township Post Office. Other offices will
continue to serve as hubs, reducing the traffic into the Pittsburgh P&DC. There are no
proposed changes to Postal Vehicle Services schedules; however, management plans
to adjust 20 highway contract routes (HCRs) and add three new routes for an annual
savings of $127,391. See Table 6 provided by the Postal Service.




                                                  11
New Castle Processing and Distribution Facility                             NO-AR-10-002
 Outgoing Mail Consolidation



                 Table 6: Proposed Highway Contract Route Changes

   Highway
                    Current Annual      Current Annual     Proposed        Proposed
Contract Route
                       Mileage               Cost        Annual Mileage   Annual Cost
 ID Number
    160A0                    62,787           $120,821          48,506         $97,463
    16027                    96,853            192,299          87,855         177,114
    16039                    48,541            102,853          41,878          90,851
    161A1                    52,543             79,468          40,297          63,725
    161L0                   145,774            197,450         126,990         175,824
    161L4                   170,513            311,247         170,010         310,466
    161L6                    56,954             98,024          56,853          97,877
    161L7                    80,675            125,992          91,538         140,413
    161L8                    58,520             94,017          71,219         111,359
    16129                    63,334            102,098          41,457          72,121
    16131                   124,819            193,039          93,064         151,295
    16138                    67,371            123,911          75,994         137,392
    16140                   197,569            291,490         155,213         238,372
    16142                    85,979            119,772          63,851          93,570
    16143                    64,375            101,498          62,363          98,802
    16144                    48,241            $79,112          58,878          93,940
    16163                    95,010            116,246          95,161         116,403
    16191                   121,079            319,136         109,231         292,592
    16111                   102,415            134,220          99,398         130,859
    16231                    36,914             52,184          27,157          40,460
  161NEW1                                                       18,005          35,034
  161NEW2                                                       15,641          30,435
  161NEW3                                                       15,993          31,120

      Total               1,780,265         $2,954,877        1,666,551     $2,827,486

                      Total HCR Annual Savings                                $127,391

Maintenance

As part of the planned consolidation, the two AFCSs at the New Castle P&DF will be
removed and replace two older AFCSs at the Pittsburgh P&DC. This will eliminate the
need for the associated maintenance at the New Castle P&DF. In FY 2009, 1,955
hours were utilized to maintain the AFCSs including 1,153 hours of preventative
maintenance, 32 hours corrective maintenance, and 770 hours of operational
maintenance. Additionally, $20,505 was spent on parts for the two AFCSs that will no
longer be in service.




                                                  12
New Castle Processing and Distribution Facility                                                       NO-AR-10-002
 Outgoing Mail Consolidation

Cost Analysis

Consolidating the outgoing mail processing operations from the New Castle P&DF to
the Pittsburgh P&DC will generate savings7 from employee workhours, transportation
reductions, and machine maintenance costs. Total yearly savings is projected to equal
more than $1.8 million. See Table 7.

        The New Castle P&DF will be consolidating 25 percent of its FHP volume into the
         Pittsburgh P&DC. Our analysis projects that the New Castle P&DF could reduce
         more than 12 percent of its overall function 1 work hours as a result of the
         consolidation.
        Realignment of transportation routes is projected to save more than $127,000.
        Maintenance savings of $115,000 from work hour savings and reduction of spare
         parts inventory.
        Our analysis consists of FY 2009 data compared to the April 2008 through March
         2009 data that the Postal Service used in preparing the AMP package. Our
         analysis of clerk and mail handler hours consists of actual hours that the New
         Castle P&DF used for outgoing distribution.
        We applied a different methodology than what was used in the New Castle P&DF
         AMP package to determine savings. Although our total savings projected at
         more than $347,000 is more than the New Castle P&DF’s AMP package, the
         package supports a favorable business case to consolidate outgoing mail
         volume.

                      Table 7: Estimated Costs Savings of Consolidation

                                               OIG Cost Savings8                       New Castle P&DF
                                           9
                                   Hours        Dollar Rate           Savings              AMP Package
    Clerk                          23,258          $46.91              $1,091,073                     981,32210
    Mail handler                   8,571           $45.66                 391,381
    Supervisor                      1,825          $48.79                  89,059                       143,118
    Transportation                   NA              NA                   127,391                      $127,391
    Maintenance                    1,955           $48.20                  94,234                      $214,380
    Spare Parts Inventory            NA              NA                     20,505 Not included in AMP
                                                   Total             $1,813,643                    $1,466,211



7
  We reviewed the New Castle P&DF AMP consolidation study prepared by Postal Service Headquarters and
determined the assumptions and estimates were reasonable.
8
  Clerk, mail handler, and supervisor hours are detailed in the “Efficiency” section of the report. Transportation and
maintenance savings are outlined in their respective sections.
9
  For craft employees (clerks, mail handlers, and maintenance), 1,752 hours is equivalent to one employee for 1 year.
For supervisors, 1,825 hours is equivalent to one employee for 1 year. Employee totals are listed in the “Employee
Impact” section of this report.
10
   The AMP package combined clerk and mail handler savings into one dollar figure.




                                                          13
